                                Office of Inspector General
                               Corporation for National and
                                        Community Service




     AGREED-UPON PROCEDURES FOR
    CORPORATION FOR NATIONAL AND
  COMMUNITY SERVICE GRANTS AWARDED
   TO THE ONESTAR NATIONAL SERVICE
           COMMISSION, INC.
          OIG REPORT NUMBER 07-18




                       Prepared by:

               COTTON & COMPANY LLP
               635 Slaters Lane, 4th Floor
                Alexandria, Virginia 22314




This report was issued to Corporation management on June 28, 2007. Under
the laws and regulations governing audit follow-up, the Corporation is to make
final management decisions on the report’s findings and recommendations no
later than December 28, 2007 and complete its corrective actions by June 28,
2008. Consequently, the reported findings do not necessarily represent the
final resolution of the issues presented.
                         OFFICE OF INSPECTOR GENERAL

                                         June 28, 2007


TO:            Kristin McSwain
               Director, AmeriCorps State*National

               Margaret Rosenberry
               Director, Office of Grants Management


FROM:          Carol Bates
               Assistant Inspector General for Audit

SUBJECT:       Report 07-18, Office of Inspector General (OIG) Agreed-Upon Procedures for
               National and Community Service Grants Awarded to the OneStar National
               Service Commission

We contracted with the independent certified public accounting firm of Cotton & Company
LLP (Cotton) to perform agreed-upon procedures in its review of Corporation for National
and Community Service grants awarded to the OneStar National Service Commission
(Commission). The contract required that Cotton conduct its review in accordance with
generally accepted government auditing standards.

In its review of the Commission, Cotton questioned Federal share costs of $3,525,487 and
non-grant costs of $28,355 related to AmeriCorps education awards. It also presented nine
findings on internal controls and compliance with grant terms.

In connection with the contract, we reviewed Cotton's report and related documentation and
inquired of its representatives. Our review, as differentiated from an audit in accordance
with generally accepted government auditing standards, was not intended to enable us to
express, and we do not express opinions on the conclusions expressed in the report. Cotton is
responsible for the attached report, dated March 12, 2007, and the conclusions expressed
therein. However, our review disclosed no instances where Cotton did not comply, in all
material respects, with generally accepted government auditing standards.

Under the Corporation’s audit resolution policy, a final management decision on the findings
in this report is due by December 28, 2007. Notice of final action is due by June 28, 2008.

If you have questions pertaining to this report, please call me at 202-606-9356.

Attachment

                   1201 New York Avenue, NW Suite 830, Washington, DC 20525
                     202-606-9390 Hotline: 800-452-8210 www.cncsoig.gov

                       Senior Corps   AmeriCorps   Learn and Serve America
cc:   Susan Weddington, President and Chief Executive Officer,
        OneStar National Service Commission
      Sam Hadley, Partner, Cotton & Company LLP
      Jerry Bridges, Chief Financial Officer
      William Anderson, Deputy Chief Financial Officer
      Sherry Blue, Audit Resolution Coordinator
                                OFFICE OF INSPECTOR GENERAL
                                AGREED-UPON PROCEDURES FOR
                       CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                     GRANTS AWARDED TO
                          ONESTAR NATIONAL SERVICE COMMISSION, INC.


                                                         CONTENTS


Section                                                                                                                   Page


Executive Summary ............................................................................................................ 1

Independent Accountants’ Report on Applying Agreed-Upon Procedures........................                                    4

Exhibit A: Consolidated Schedule of Claimed and Questioned Costs ..............................                               7

Schedule A: Administrative Grant 03CAHTX002 ............................................................ 8

Schedule B: American Youth Works (AYW) ...................................................................                    9

Schedule C: AmeriCorps For Community Education and Engagement (ACEE).............. 13

Schedule D: Communities in Schools (CIS), Central Texas, Inc. ..................................... 14

Schedule E: Houston Read Commission (HRC) ............................................................... 15

Schedule F: AmeriCorps Youth Harvest (AYH) Edcouch-Elsa Independent
            School District ............................................................................................... 17

Schedule G: Amarillo Independent School District (AISD).............................................. 20

Exhibit B: Compliance Results.......................................................................................... 22

Appendices

A: OneStar National Service Commission’s Response to Agreed-Upon Procedures Report
B: Corporation’s Response to Agreed-Upon Procedures Report
                                        EXECUTIVE SUMMARY

     The Office of Inspector General (OIG), Corporation for National and Community Service
     (Corporation), contracted with Cotton & Company LLP to perform agreed-upon procedures
     to assist the OIG in grant cost and compliance testing of Corporation-funded Federal
     assistance provided to the OneStar National Service Commission, Inc.

     BACKGROUND

     The Corporation supports national and community service programs that provide full- and
     part-time opportunities for Americans to engage in service that fosters civic responsibility,
     strengthens communities, and provides educational opportunities for those who make a
     commitment to service. The AmeriCorps program is one of the Corporation’s three major
     service initiatives. Approximately three-quarters of all AmeriCorps grant funding goes to
     governor-appointed state service commissions, which award competitive grants to nonprofit
     groups that then recruit AmeriCorps members to respond to local needs.

     OneStar is a nonprofit organization headquartered in Austin, Texas. The Governor of Texas
     designated OneStar as the Texas service commission as of January 1, 2004. OneStar receives
     multiple awards from the Corporation, including AmeriCorps; Administrative and
     Professional Development and Training (PDAT); Disability; and Basic Innovative grants.

     The primary AmeriCorps grants are annual awards passed through OneStar to eligible
     subgrantees (state and local government and certain non-profits) that recruit and select
     volunteers who then may receive living allowances and education awards. OneStar had
     653 AmeriCorps members in Program Year (PY) 2003-2004; 1,047 AmeriCorps members in
     PY 2004-2005; and 1,148 AmeriCorps members in PY 2005-2006.

     Agreed-Upon Procedures Scope and Results

     Except as described below, Cotton & Company performed the agreed-upon procedures
     detailed in the OIG’s Agreed-Upon Procedures (AUP) Program for Corporation Awards to
     Grantees (including Subgrantees), dated January 2007. Our procedures covered testing of the
     following grants:

                                                                                               Total
       Program              Grant No.          AUP Period              Award Period
                                                                                              Awards
Administrative            03CAHTX002      01/01/2004-03/31/2006    09/01/2003-09/02/2006      $1,990,574
PDAT                      04PTHTX001      01/01/2004-03/31/2006    01/01/2004-12/31/2006        $503,769
AmeriCorps-Competitive    03ACHTX002      01/01/2004-03/31/2006    09/01/2003-12/31/2006     $11,949,364
AmeriCorps-Formula        03AFHTX002      01/01/2004-03/31/2006    09/11/2003-09/10/2006      $9,316,429




                                                   1
We did not perform agreed-upon procedures related to cost testing (Section 3.D. of the AUP
Program) for the following subgrantees:

       •      American Youth Works’ Financial Status Reports (FSRs) reported Federal
              share costs totaling $2,728,050 for the period January 1, 2004, to March 31,
              2006.

       •      Houston Read Commission’s PY 2004-2005 FSR reported Federal share costs
              totaling $723,827.

We conducted our field work from October 2006 through January 2007.

SUMMARY OF RESULTS

The detailed results of our agreed-upon procedures on claimed costs are presented in
Exhibit A and supporting schedules. As a result of applying our procedures, we questioned
claimed Federal-share costs of $3,525,487 and education awards of $28,355. A questioned
cost is an alleged violation of provision of law, regulation, contract, grant, cooperative
agreement, or other agreement or document governing the expenditure of funds; or a finding
that, at the time of testing, such cost is not supported by adequate documentation.

Grant participants who successfully complete terms of service under AmeriCorps grants are
eligible for education awards from the National Service Trust. These award amounts are not
funded by Corporation grants and thus are not included in claimed costs. However, as part of
our agreed-upon procedures, and using the same criteria as that for claimed costs, we
determined the effect of our findings on education-award eligibility.

We have summarized grant compliance results in Exhibit B. Following is a summary of
those testing results.

1.     OneStar and some of its subgrantees claimed unallowable and unsupported costs.

2.     Two subgrantees did not verify eligibility for all members before they began service.

3.     OneStar did not ensure that all members received required criminal background
       checks before working with children.

4.     Timesheets did not support some members’ eligibility for education awards and, in
       some instances, timesheet hours were not always accurately recorded in WBRS.

5.     Subgrantees did not always complete member enrollment, exit, and change-of-status
       forms and enter them into WBRS in accordance with AmeriCorps requirements.

6.     Some member contracts were not signed before applicants started service, were
       missing, or did not include all required elements.




                                             2
7.     Some subgrantees did not always document member orientation training attendance.

8.     Subgrantees did not, in some instances, conduct member evaluations that met
       AmeriCorps requirements and did not document all evaluations.

9.     Some subgrantee financial management systems did not adequately account for and
       report grant costs and related program income in accordance with Federal
       requirements.

EXIT CONFERENCE

We conducted an exit conference with OneStar and Corporation representatives on April 16,
2007. Following that conference, we issued a draft report to both OneStar and the
Corporation for comment. OneStar’s responses are provided at Appendix A and generally
summarized in the body of the report. The Corporation did not have specific comments but
intends to respond in its management decision at a later date (see Appendix B).




                                            3
March 12, 2007
Office of Inspector General
Corporation for National and Community Service


                          INDEPENDENT ACCOUNTANTS’ REPORT ON
                           APPLYING AGREED-UPON PROCEDURES


Except as described in the following paragraph, Cotton & Company LLP performed the
procedures detailed in the OIG’s Agreed-Upon Procedures (AUP) Program for Corporation
Awards to Grantees (including Subgrantees), January 2007. These procedures were agreed
to by the OIG solely to assist it in grant cost and compliance testing of Corporation-funded
Federal assistance provided to the OneStar National Service Commission, Inc., for the
awards detailed below.

We did not perform the agreed-upon procedures related to cost testing (Section 3.D. of the
AUP Program), as follows:

       •       American Youth Works’ (AYW) Financial Status Reports (FSRs) report
               Federal share costs totaling $2,728,050 for the period January 1, 2004, to
               March 31, 2006. AYW was unable to reconcile accounting records to
               claimed costs or support the majority of transactions that we sampled from its
               accounting records.

       •       Houston Read Commission’s (HRC) Program Year (PY) 2004-2005 FSR
               reports Federal share costs totaling $723,827. HRC could not support the
               amount claimed for the program year with its accounting records. HRC plans
               to submit a revised FSR to OneStar after a comprehensive recalculation is
               completed.

This agreed-upon procedures engagement was performed in accordance with standards
established by the American Institute of Certified Public Accountants and generally accepted
government auditing standards. The sufficiency of these procedures is solely the
responsibility of the OIG. Consequently, we make no representation regarding the
sufficiency of the procedures, either for the purpose for which this report has been requested
or any other purpose.




                                              4
      Our procedures covered testing of the following grants:

       Program             Grant No.           AUP Period                 Award Period         Total Awards
Administrative            03CAHTX002      01/01/2004-03/31/2006        09/01/2003-09/02/2006         $1,990,574
PDAT                      04PTHTX001      01/01/2004-03/31/2006        01/01/2004-12/31/2006           $503,769
AmeriCorps-Competitive    03ACHTX002      01/01/2004-03/31/2006        09/01/2003-12/31/2006        $11,949,364
AmeriCorps-Formula        03AFHTX002      01/01/2004-03/31/2006        09/11/2003-09/10/2006         $9,316,429


      We performed testing at OneStar as well as six of its AmeriCorps subgrantees. We selected
      and tested 164 Federal and 30 match-cost transactions at OneStar and 20 Federal and 10
      match-cost transactions from each program year at each of the 6 subgrantees. Additionally
      we tested certain grant compliance requirements by sampling 178 members at the following
      subgrantees:

                                                                   PY            PY          PY
       Subgrantee                                               2003-2004     2004-2005   2005-2006
       American Youth Works (AYW)                                                13            16
       AmeriCorps for Community Engagement and
        Education (ACEE)                                           7             10            15
       Communities in Schools (CIS), Central Texas, Inc.                         10            15

       Houston Read Commission (HRC)                                             16            16
       AmeriCorps Youth Harvest (AYH) Edcouch-Elsa
                                                                                 15            20
        Independent School District
       Amarillo Independent School District (AISD)                               10            15


      Except as described in the second paragraph of our report, we performed all applicable
      testing procedures in the AUP Program on each sample transaction or member file.

      RESULTS OF AGREED-UPON PROCEDURES

      The detailed results of our agreed-upon procedures on claimed costs are presented in
      Exhibit A and supporting schedules. As a result of applying our procedures, we questioned
      claimed Federal-share costs of $3,525,487 and education awards of $28,355. A questioned
      cost is an alleged violation of provision of law, regulation, contract, grant, cooperative
      agreement, or other agreement or document governing the expenditure of funds; or a finding
      that, at the time of testing, such cost is not supported by adequate documentation.

      Grant participants who successfully complete terms of service under AmeriCorps grants are
      eligible for education awards from the National Service Trust. These award amounts are not
      funded by Corporation grants and thus are not included in claimed costs. As part of our
      agreed-upon procedures and using the same criteria as that for claimed costs, however, we
      determined the effect of our findings on education award eligibility.


                                                   5
We have summarized the results of testing grant compliance in Exhibit B. We were not
engaged to, and did not perform an examination, the objective of which would be expression
of an opinion on the subject matter. Accordingly, we do not express such an opinion. Had
we performed other procedures, other matters might have come to our attention that would
have been reported to you.

This report is intended solely for the information and use of the OIG, Corporation, OneStar,
and U.S. Congress and is not intended to be and should not be used by anyone other than
these specified parties.


COTTON & COMPANY LLP



Sam Hadley, CPA
Partner




                                              6
                                                                                EXHIBIT A


                               ONESTAR COMMISSION
              CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
              CONSOLIDATED SCHEDULE OF CLAIMED AND QUESTIONED COSTS


                                                                     Questioned
                                                                     Education
Award                         Awarded       Claimed     Questioned    Awards       Reference
03CAHTX002                    $1,990,574   $1,445,669       $1,002                 Schedule A
04PTHTX001
                               $503,769     $376,456
03ACHTX002
 American Youth Works         $3,865,475   $2,728,050   $2,728,050     $4,725      Schedule B
 AmeriCorps for Community
  Education and Engagement     2,260,917    2,060,688          18       4,725      Schedule C
 Communities in Schools,
  Central Texas                1,219,018      915,010                   3,750      Schedule D
 Houston Read Commission       1,823,612    1,205,531     723,827      5,062       Schedule E
 Others                        2,780,342    1,742,531    ________     ______
   Total                     $11,949,364   $8,651,810   $3,451,895    $18,262
03AFHTX002
 AmeriCorps Youth Harvest     $1,733,414   $1,449,009      $63,864     $2,363      Schedule F
 Amarillo Independent
  School District              1,019,074     855,743         8,726      7,730      Schedule G
 Houston Read Commission         459,726     373,686
 Communities in Schools,
  Central Texas                  446,348      415,613
 Others                        5,657,867    3,406,168      ______     ______
   Total                      $9,316,429   $6,500,219      $72,590    $10,093




                                              7
                                                                             SCHEDULE A


                          ONESTAR COMMISSION
         CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
               SCHEDULE OF CLAIMED AND QUESTIONED COSTS

                               ADMINISTRATIVE GRANT
                                  03CAHTX002


                                                  Amount         Note
                Claimed Federal Costs            $1,445,669

                Questioned Federal Costs
                 Unallowable legal fees              $1,002        1


1.   OneStar claimed legal fees related to its establishment as an organization. OneStar
     was established in December 2003 to replace the Texas Commission on Volunteerism
     and Community Service. We identified legal fees of $4,349 associated with
     OneStar’s establishment as a nonprofit organization, of which $1,002 was allocated to
     the administrative grant. OMB Circular A-122, Cost Principles for Non-Profit
     Organizations, Attachment B, paragraph 31, Organization Costs, in effect at the time
     these costs were incurred, states that expenditures in connection with establishing or
     reorganizing an organization are unallowable except with prior approval of the
     awarding agency. This requirement is now codified at 2 CFR § 230, Appendix B,
     Paragraph 31. Because no prior approval was obtained, we questioned $1,002.




                                           8
                                                                              SCHEDULE B


                          ONESTAR COMMISSION
         CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
               SCHEDULE OF CLAIMED AND QUESTIONED COSTS

                         AMERICAN YOUTH WORKS (AYW)


                                                     Amount         Notes
             Claimed Federal Costs                 $2,728,050

             Questioned Federal Costs:             $2,728,050         1

             Questioned Education Awards:
              Insufficient service hours               $4,725         2

1.   AYW did not provide sufficient documentation for us to perform all of our agreed-
     upon procedures testing of claimed costs. However, results of partial testing showed
     unallowable and unallocable costs.

     •      AYW was unable to reconcile Federal and grantee costs reported on the FSR
            to its accounting records. AYW provided a schedule that compared FSR
            amounts to its accounting records. The schedule identified differences in each
            calendar year (CY) as follows:

                                         Federal Share      Recipient Share
          CY 2004
           FSR                              $1,159,673          $1,314,009
           General Ledger                    1,164,789           1,339,163
          Difference                           $(5,116)           $(25,154)

          CY 2005
           FSR                              $1,162,489            $994,722
           General Ledger                    1,174,613           1,027,452
          Difference                          $(12,124)           $(32,730)

          CY 2006 (through 3/31)
           FSR                                 $405,888           $98,546
           General Ledger                       497,130            65,468
          Difference                           $(91,242)          $33,078




                                           9
•      AYW was unable to provide documentation to support most of the sample
       items:

                                     Number of Transactions
           Program Year          Sample Supported Unsupported
           2003-2004                20            2              18
           2004-2005                20            7              13
           2005-2006                11            5               6
           Total                    51           14              37

•      Of the 14 transactions we tested to supporting documents, we identified the
       following unallowable and/or unallocable costs:

       •           Six transactions were for vehicle repair expenditures. AYW provided
                   an inventory of leased vehicles used in the AmeriCorps programs. We
                   identified repairs charged to the grant for vehicles not used in these
                   programs.

       •           Travel costs of $989 were charged for a trip to Finland unrelated to the
                   AmeriCorps programs.

       •           Two expenditures for office supplies and a staff meeting were charged
                   to AmeriCorps, even though the AmeriCorps program received no
                   direct benefit. These costs should have been treated as indirect and
                   allocated to all of AYW’s programs.

Because of the reconciliation problems discussed previously, we were unable to
complete the cost testing procedures, and the results of limited testing procedures
indicated that costs were not attributable to the program. Therefore, we questioned
all claimed costs of $2,728,050.

Based on the work that we performed, we identified the following additional areas of
concern:

a.     AYW claimed PY 2005-2006 Federal-share costs on its FSR that exceeded
       allowable amounts. Grantees are required to match 15 percent of member
       support costs and 33 percent of program operating costs in accordance with
       45 CFR §§ 2521.45(a), Member support, and (b), Program operating costs.
       AYW claimed 92 percent of its member support and 69 percent of its program
       operating costs as Federal share for PY 2005-2006.

b.     Based on discussions with AYW and OneStar representatives, we learned
       that:




                                          10
       •       AYW had not developed an indirect cost rate to recover its indirect
               costs associated with programs. Space and other overhead costs were
               apparently allocated to programs using a direct allocation methodology
               that is several years old and had not recently been reevaluated.

       •       Matching costs were funded by AYW’s Housing and Urban
               Development (HUD) grant, which is approximately $700,000
               annually. Some of those costs charged to the HUD grant were claimed
               both as Federal costs on the HUD FSR and as matching costs on the
               Corporation FSR. OneStar previously requested that AYW delete
               HUD-funded costs from its claimed match in PY 2003-2004 and PY
               2005-2006. AYW did not have a HUD grant in PY 2004-2005.

       •       AYW’s e-Corps program charged cities and counties for time that
               members spent on environmental issues. It did not, however, report
               this program income on its FSRs to OneStar.

       •       AYW’s Youthbuild program earned income from the sale of houses
               built by AmeriCorps members. The AmeriCorps budget included
               significant costs for the associated building services and materials
               (e.g., drywall, plumbing services, lumber). Sale proceeds, however,
               were wrongly not considered as program income and did not fund
               match. Instead, AYW used the proceeds to fund construction of the
               next homebuilding project.

       •       AYW recorded an adjusting entry at year end to reclassify its home-
               building expenses as inventory on the balance sheet. As a result, the
               general ledger supporting AYW’s audited financial statements did not
               reconcile to its FSRs.

       •       In May 2006, OneStar notified AYW that it would not fund AYW’s
               PY 2006-2007 grant. OneStar’s decision was based, at least in part, on
               concerns about AYW’s accounting for matching and program income.

Recommendation: We recommend that the Corporation use or ensure an audit-like,
and in-depth, approach in its review of the detailed support for AYW costs claimed
by OneStar and recoup costs improperly charged to the AmeriCorps program. The
Corporation’s review is critical because of the areas of concern expressed herein and
because another Corporation grantee is now funding the AYW homebuilding program
that was formerly funded by OneStar.

OneStar’s Response: OneStar has been working with AYW to address and resolve
many of the issues. AYW has provided OneStar with documentation for the costs
selected for testing. OneStar has tested these costs for allowability, and will share its
testing results with the Corporation, as well as its findings and recommendations.




                                       11
     OneStar anticipates that questioned costs will be significantly less than identified in
     this review. In response to the other reported areas of concern:

            •       AYW claimed Federal share costs in excess of allowable amounts on
                    its interim PY 2005 – 2006 FSR. AYW’s Federal share costs on its
                    final FSR for that program year will not exceed allowable amounts.

            •       OneStar informed AYW that the expenditures under the HUD grant
                    were disallowed as match for PY 2005 – 2006, and will not be
                    included on the final FSR. As a result, Federal share costs reported to
                    the Corporation will not include the AYW home-building costs.

     Additional Comments: The corrective actions, as described in the comments, are
     generally responsive to our recommendations; however, OneStar does not address the
     impact of previously unrecognized program income, from the sale of houses, on
     allowable Federal share costs. The Corporation should closely review OneStar’s
     testing results and ensure that all issues regarding the allowability of AYW’s Federal
     share costs are resolved using the recommended audit-like approach.

2.   Seven members in PY 2004-2005 started their service before signing the member
     contract. AmeriCorps Provisions, B.8.d., Member Enrollment Procedures, states that
     an individual is enrolled as an AmeriCorps member when he or she has met certain
     criteria, which includes a signed member contract. We questioned education awards
     totaling $4,725 for two half-time members. After deducting hours served prior to
     signing the member contract, these members did not meet the 900 minimum service
     hours required for half-time education awards, as detailed below:

                                                   Member 1         Member 2
          Timesheet hours                             927              916
          Hours prior to signing contract              85               87
          Eligible service hours                      842              829
          Service hours required for award            900              900
          Questioned Education Award              $2,362.50         $2,362.50




                                             12
                                                                              SCHEDULE C


                          ONESTAR COMMISSION
         CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
               SCHEDULE OF CLAIMED AND QUESTIONED COSTS

      AMERICORPS FOR COMMUNITY EDUCATION AND ENGAGEMENT (ACEE)
                     UNIVERSITY OF TEXAS AT AUSTIN


                                                       Amount         Notes
            Claimed Federal Costs                     $2,060,688

            Questioned Federal Costs:
             Over-claimed administrative costs                $18        1

            Questioned Education Award:
             Unsupported WBRS hours                       $4,725         2


1.   ACEE claimed administrative costs in excess of the administrative percentage
     allowed for PY 2003-2004. AmeriCorps Provisions, C.23.b., Administrative Costs,
     stipulates that administrative costs cannot exceed 5 percent of total Corporation funds
     actually expended under the grant award. The ACEE individual responsible for
     preparing claimed costs did not understand that administrative costs were recoverable
     as a percentage of costs incurred and not at the total budgeted dollar amount. We
     questioned $18.

2.   Timesheet hours for three members in PY 2003-2004 did not support hours reported
     in the Corporation’s Web-Based Reporting System (WBRS). AmeriCorps
     Provisions, C.22.c., Financial Management Provisions, Time and Attendance
     Records, requires that grantees keep time-and-attendance records for all AmeriCorps
     members to document their eligibility for in-service and post-service benefits. The
     Corporation uses time-and-attendance information in WBRS to track member status,
     which forms the basis for calculating education awards. Member timesheet totals
     were incorrect, thus inaccurate hours were reported in WBRS. Actual hours
     supported by the timesheets for one of the three members were insufficient to meet
     the service-hour requirement for an education award. ACEE reported 1,700 hours for
     this member, but her timesheets supported only 1,696 hours. Therefore, we
     questioned the member’s education award of $4,725, because the member did not
     meet the 1,700 minimum hour requirement.




                                           13
                                                                             SCHEDULE D


                          ONESTAR COMMISSION
         CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
               SCHEDULE OF CLAIMED AND QUESTIONED COSTS

                 COMMUNITIES IN SCHOOLS (CIS), CENTRAL TEXAS


                                                       Amount       Note
              Claimed Federal Costs                    $915,010

              Questioned Education Awards:
               Insufficient service hours                $3,750      1


1.   Three members in PY 2004-2005 started their service before signing the member
     contract. AmeriCorps Provisions, B.8.d., Member Enrollment Procedures, states that
     an individual is enrolled as an AmeriCorps member when he or she has met certain
     criteria, which includes a signed member contract. We questioned member education
     awards of $3,750 for three quarter-time members. These members did not meet
     minimum service hours required for education awards when the hours were deleted
     for service performed before contracts were signed, as detailed below:


                                         Member 1 Member 2 Member 3
      Timesheet hours                           452          495           475
      Hours prior to signing contract             7           62            35
      Eligible service hours                    445          433           440
      Service hours required for award          450          450           450
      Questioned Education Award              $1,250       $1,250        $1,250




                                         14
                                                                              SCHEDULE E


                          ONESTAR COMMISSION
         CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
               SCHEDULE OF CLAIMED AND QUESTIONED COSTS

                         HOUSTON READ COMMISSION (HRC)

                                                     Amount       Notes
                Claimed Federal Costs               $1,205,531

                Questioned Federal Costs              $723,827       1

                Questioned Education Awards:
                 Unsupported WBRS Hours                 $5,062       2

1.   We could not perform cost testing procedures at HRC for PY 2004-2005, because it
     could not support the amount claimed for that program year with its accounting
     records. HRC representatives stated that they plan to file a revised FSR for PY 2004-
     2005 after a comprehensive reconstruction is performed. We questioned $723,827
     reported as the Federal share on the latest FSR filed for that PY, and only reviewed
     claimed costs of $481,704 for PY 2005-2006.

     Recommendation: We recommend that the Corporation use or ensure an audit-like,
     and in-depth approach in its reviews of the revised HRC FSR for PY 2004-2005 and
     detailed support, and determine and recoup amounts charged to the AmeriCorps
     program, i.e., the amount of unallowable costs. We believe such a review is
     necessary because of the extent of costs questioned and the reasons the costs were
     questioned.

     OneStar’s Response: OneStar has worked with HRC to reconcile reported Federal
     share costs to its accounting records and to accurately report in-kind contributions
     allocated as match. OneStar will work with the Corporation to determine the
     allowability of claimed costs and to recover any overclaimed costs.

     Additional Comments: OneStar’s corrective actions, as described, are responsive to
     our recommendation. The Corporation should follow the recommended audit-like
     approach in reviewing costs.

2.   HRC reported hours in WBRS that are not supported by member timesheets for eight
     members. HRC provided all timesheets, however, for three members in PY 2004-
     2005 and five members in PY 2005-2006, the hours reported on those timesheets did
     not support hours reported in WBRS. AmeriCorps Provisions, C.22.c.ii., requires
     grantees to keep time-and-attendance records for all AmeriCorps members to



                                           15
     document their eligibility for in-service and post-service benefits. The Corporation
     uses time-and-attendance information in WBRS to track member status and to
     determine eligibility for and the dollar amount of education awards. Hours supported
     by timesheets for the three PY 2004-2005 members were not sufficient to earn the
     education award, as detailed below. We questioned $5,062, calculated as follows:

                                                                              Total
                                Member 1        Member 2      Member 3      Questioned
Hours recorded on WBRS             1,539          1,731          785
Hours supported by timesheets      1,482          1,680          717
Education award questioned          $158         $4,725         $179           $5,062

     Members 1 and 3 left the program for compelling personal circumstances and earned
     a prorated education award based on hours reported in WBRS. Therefore, we
     recalculated the education award based on hours actually served and questioned the
     difference. For Member 2, the entire award was questioned because the member did
     not meet the 1,700 minimum hour requirement. We did not question education
     awards for the 5 members in PY 2005-2006 because the PY was not complete as of
     the date of this review.




                                           16
                                                                              SCHEDULE F


                          ONESTAR COMMISSION
         CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
               SCHEDULE OF CLAIMED AND QUESTIONED COSTS

                      AMERICORPS YOUTH HARVEST (AYH)
                  EDCOUCH-ELSA INDEPENDENT SCHOOL DISTRICT


                                                               Amount        Notes
     Claimed Federal Costs                                    $1,449,009

     Questioned Federal Costs:
       Accounting records do not support claimed costs           $30,350        1
       Unsupported costs                                             416        2
       Unallowable in-kind costs                                  30,425        3
       No end-of-term evaluation                                   2,673        4
     Total Questioned Federal Costs                              $63,864

     Questioned Education Award:
       Insufficient service hours                                 $2,363        5


1.   AYH was unable to support amounts reported on its FSR with its accounting records.
     AmeriCorps Provisions, C.22.a., General, states that grantees must maintain financial
     management systems that include a clear audit trail. Financial management systems
     must be capable of distinguishing expenditures attributable to the grant from those not
     attributable to the grant. The program manager prepared financial reports from
     records received from the accounting office of the school district, however the
     program manager did not use the cumulative report totals, and did not reconcile
     cumulative amounts reported to accounting reports, and therefore could not explain
     the differences between amounts reported and amounts shown on accounting reports.
     We questioned the $30,350 unreconciled difference between the FSR and accounting
     records as of March 31, 2006 (program operating costs of $29,096 and member
     support costs of $1,254).

2.   AYH did not provide documentation to support $416 of utility costs claimed.
     AmeriCorps Provisions, C.22.b., Source Documentation, states that the grantee must
     maintain adequate supporting documents for grant expenditures. It allocated utility
     costs to the AmeriCorps program, but was unable to locate supporting documents.
     We questioned $416.




                                           17
3.   AYH did not provide sufficient documentation to support $35,387 of in-kind
     contributions claimed as matching program operating costs. These costs were
     unsupported because AYH did not provide support for the hourly salary rate of
     volunteers and for the square-footage cost of office space. According to
     45 CFR § 2543.23 (a)(1), contributions can be accepted to the extent that costs are
     verifiable from the recipient’s records. It further states that the basis for determining
     the valuation of contributions must be documented.

     AYH did not meet its required match percentage for program operating costs in PY
     2005-2006. AmeriCorps Provisions, B.13.a., requires grantees to match 33 percent of
     program operating costs. Because we could not reconcile AYH’s claimed costs to its
     accounting reports by PY, as discussed in Note 1, above, we combined operating
     costs for all program years and questioned $30,425 of Federal program operating
     costs exceeding the 67-percent ceiling as follows:

      Total Claimed Program Operating Costs                               $615,881
      Less: Unallowable matching costs                                     (35,387)
            Unsupported costs (Note 1)                                     (29,096)
            Utility costs (Note 2)                                            (416)
      Allowable Program Costs                                             $550,982

      Allowable Federal Share (67% of total program cost)                 $369,158
      Federal costs claimed                                                429,095
      Questioned Program Costs Exceeding Ceiling                            $59,937

      Less Costs Questioned in Notes 1 and 2                                (29,512)
      Net Questioned Costs                                                  $30,425

4.   AYH did not provide an end-of-term evaluation for one PY 2004-2005 member who
     served a second term. AmeriCorps Provisions, B.7.g., Performance Reviews, requires
     mid-term and end-of-year member performance evaluations. According to 45 CFR §
     2522.220(c), Participant performance review, a participant is not eligible for a second
     or additional term of service and therefore not eligible for an AmeriCorps education
     award for subsequent service without a satisfactory mid-term and final performance
     evaluation for the prior service. We questioned the member’s PY 2005-2006 living
     allowance of $2,673 (paid through March 31, 2006), because without a final
     evaluation for PY 2004-2005, the member was not eligible. We were unable to
     identify costs of health insurance and other benefits associated with questioned living
     allowance. These related costs, as well as living allowance payments made after
     March 31, 2006, should be quantified and included in the resolution of this cost
     exception.




                                             18
5.   Four of 35 AYH members began service before signing member contracts.
     AmeriCorps Provisions, B.8.d., Member Enrollment Procedures, states that an
     individual is enrolled as an AmeriCorps member when he or she has met certain
     criteria, which includes a signed member contract. We questioned the
     $2,363 education award of one PY 2004-2005 half-time member. The member’s
     timesheets supported 903 hours, 32 of which were served before the member signed
     the contract. Without the service hours performed before signing the member
     contract, the member did not meet the minimum (900) service hours required for the
     education award.




                                          19
                                                                                 SCHEDULE G


                          ONESTAR COMMISSION
         CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
               SCHEDULE OF CLAIMED AND QUESTIONED COSTS

                 AMARILLO INDEPENDENT SCHOOL DISTRICT (AISD)


                                                       Amount         Notes
               Claimed Federal Costs                   $855,743

               Questioned Federal Costs:
                 Unsupported costs                         $125         1
                 Missing program records                   8,601        2
                  Total questioned costs                 $8,726

               Questioned Education Awards:
                 Missing program records                 $4,130         2
                 Insufficient service hours               3,600         3
               Total questioned education awards         $7,730


1.   AISD claimed $125 for furniture purchased from an AmeriCorps staff member in PY
     2004-2005. The purchase was supported by an inventory list, but documentation
     provided was insufficient to establish both the reasonableness of the amount paid and
     that the items had not previously been purchased with AmeriCorps funds.
     AmeriCorps Provisions, C.22.b., states that the grantee must maintain adequate
     supporting documents for its expenditures. We questioned $125.

2.   AISD was unable to locate one member’s file for PY 2004-2005, and thus did not
     provide a member contract, enrollment form, timesheets, or evaluations for the
     member. AmeriCorps Provisions, B.14.a., Record-Keeping, states that grantees must
     maintain records that are sufficient to establish member eligibility to participate in the
     program and successful completion of program requirements. We questioned the
     Federal share of the member’s $7,222 living allowance, $1,379 of benefits (health
     insurance and FICA) totaling $8,601, and $4,130 partial education award, because
     AISD was unable to support the member’s participation in, and completion of, the
     program requirements.

3.   Two members in PY 2004-2005 began service before signing member contracts.
     AmeriCorps Provisions, B.8.d., Member Enrollment Procedures, states that an
     individual is enrolled as an AmeriCorps member when he or she has met certain
     criteria, which includes a signed a member contract. The members did not meet


                                             20
minimum service hours required for education awards after the hours served prior to
signing the member contract are deleted. We questioned member education awards
of $3,600, as detailed below.

                                            Member 1      Member 2
        Timesheet hours                          677            681
        Hours prior to signing contract           16             16
        Eligible service hours                   661            665
        Service hours required for award         675            675
        Questioned Education Award           $1,800          $1,800




                                     21
                                                                                    EXHIBIT B


                             ONESTAR COMMISSION
            CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
                             COMPLIANCE RESULTS

1.     OneStar and some of its subgrantees claimed unallowable and unsupported
       costs.

The notes to Schedules A through G describe questioned costs of $3,525,487, which are
summarized in Exhibit A. A questioned cost is an alleged violation of provision of law,
regulation, contract, grant, cooperative agreement, or other agreement or document
governing the expenditure of funds; or a finding that, at the time of testing, such cost is not
supported by adequate documentation.

Recommendation: We recommend that the Corporation follow up with OneStar to
determine the amount of costs that should be disallowed and recovered (see also similar
recommendations with regard to certain subgrantees in Schedules B and E).

OneStar’s Response: OneStar has been diligently working with subgrantees to resolve
unallowable and unsupported cost issues. OneStar looks forward to sharing its results and
determinations with the Corporation.

Additional Comments: OneStar’s corrective actions, as described in its comments, are
responsive to our recommendation. The Corporation should use an audit-like and in-depth
approach to resolve and recover questioned costs.

2.     Two subgrantees did not verify eligibility for all members before they began
       service.

We tested member files for 178 members at 6 subgrantees. Two subgrantee sites (ACEE and
AYH) did not verify citizenship for 10 members until after the members had begun their
service. Documentation for nine ACEE members indicated that verification was performed
within 10 days after starting service, but the AYH member’s citizenship was not verified
until more than 3 months after his start date.

According to 45 CFR § 2522.200, What are the eligibility requirements for an AmeriCorps
participant?, every AmeriCorps participant is required to be a citizen, national, or lawful
permanent resident alien of the United States. AmeriCorps Provisions, B.8.d., Member
Enrollment Procedures, states that an individual is enrolled as an AmeriCorps member when
the program has verified the member’s eligibility to serve. The ACEE program manager was
unaware that proof of citizenship must be verified before members can serve in the program.
Failure to verify citizenship before a member’s start date could result in members
participating who are not citizens, nationals, or lawful permanent residents.




                                               22
Recommendation: We recommend that the Corporation require OneStar to strengthen its
subgrantee training and program monitoring procedures to ensure that adequate
documentation is obtained and maintained to verify member eligibility before members begin
service. Also, the Corporation should follow up, after the additional training has been
completed and monitoring procedures are in place, to ensure that all OneStar subgrantees
verify eligibility before member contracts are signed.
OneStar’s Response: OneStar will strengthen its subgrantee training on documenting
member eligibility, ensure that appropriate staff members attend training, and ensure that its
monitoring procedures verify subgrantee compliance.
Additional Comments: OneStar’s corrective actions, as described in its comments, are
responsive to our recommendations. The Corporation should follow up to assess the
effectiveness of OneStar’s actions to ensure that subgrantees verify member eligibility before
contracts are signed.
3.     OneStar did not ensure that all members received required criminal background
       checks before working with children.

Three subgrantees (CIS, AYH, and AISD) did not conduct criminal record background
checks on 66 members working with children. We tested records for 85 members at these
locations, and criminal record checks were not documented as follows:

               Subgrantee                          PY 2004-2005
                                    Under 18        18 and Over        Total
               CIS                        0               1               1
               AYH                       11               4              15
               AISD                       6               2               8
               Total                     17               7              24

              Subgrantee                           PY 2005-2006
                                     Under 18       18 and Over        Total
              CIS                         0              7                 7
              AYH                        13              7                20
              AISD                       15              0                15
              Total                      28              14               42

In addition, the background check on one ACEE member was not completed until the day
after she started service.

AmeriCorps Provisions, C.7, Criminal Background Checks, requires that, to the extent
permitted by state law, criminal record checks be conducted on members over the age of 18
who have access to children as part of the screening process. In 2005, the AmeriCorps
Provisions were revised to indicate that criminal record checks should be done on members
18 and older. Prior to that, no age limit was identified. We noted that criminal record checks


                                              23
were not available for members regardless of age at their start of service. We also noted that
38 of the 45 members under age 18, as shown in the tables above, turned 18 during their
service term; however background checks were still not conducted.

The subgrantees did not conduct background checks because of misunderstandings about the
requirement and who should conduct them. AYH and AISD did not think that criminal
checks were required because their members were students. CIS erroneously thought that its
human resources department had conducted criminal record checks on its education award
only members. Without background checks, members with criminal records could have
contact with children, resulting in potential liability for the subgrantees, OneStar, and the
Corporation.

Recommendation: We recommend that the Corporation require OneStar to strengthen its
subgrantee training and program monitoring procedures to ensure that background checks are
performed before members perform service with children. In addition, the Corporation
should follow up after additional training is provided and monitoring procedures are in place
to ensure all OneStar subgrantees are in compliance with background check requirements.

OneStar’s Response: OneStar agrees that background checks are an important compliance
procedure but states that it is unclear how to interpret the requirements of these checks for
minor members. OneStar is reviewing state requirements for background checks of youth
under the age of 18 and is looking forward to Corporation guidance.

Additional Comments: OneStar’s comments do not address corrective actions with regard to
the report recommendations.

4.     Timesheets did not support some member’s eligibility for education awards and,
       in some instances, timesheet hours were not always accurately recorded in
       WBRS.

We tested timesheets for 178 members at 6 subgrantees. Service hours recorded in WBRS
for 37 members were not supported by member timesheets because of calculation errors or
missing timesheets. AISD could not provide any timesheets for one member in PY 2004-
2005, and three HRC files were missing a timesheet to support the member’s hours. In
several cases, these differences affected the member’s eligibility to earn an education award,
because the number of timesheet-supported service hours did not meet the Corporation’s
service-hour requirements. We identified the following instances of timesheet discrepancies:




                                              24
                                     Member          Questioned       Questioned
                                       Hour          Education        Education
           Subgrantee              Discrepancies      Awards           Amounts
           HRC                            8                3              $5,062
           ACEE                           3                1               4,725
           CIS                            1
           AYH                            5
           AISD*                         10                1               4,130
           AYW                           10                _             ______
           Total                         37                5            $13,917

       * We also questioned the $7,222 living allowance and $1,379 benefits claimed for the AISD
       member whose timesheets are missing (Schedule F, Note 2), because no documentation exists
       to show that this member actually participated in the program.

In addition, AISD did not require five members to prepare May 2005 timesheets and did not
record corresponding service hours in WBRS, because the members had already met the
minimum service-hour requirement. While the Corporation does not require entering service
hours into WBRS after the education award has been earned, the lack of timesheets and
subsequent entry into WBRS prevents the capture of all volunteer service hours, a statistic
that would be useful to the Corporation. Furthermore, the members were still serving and
needed to document their eligibility for in-service benefits. AmeriCorps Provisions, C.22.c.,
Time and Attendance Records, requires that grantees keep time-and-attendance records for all
AmeriCorps members to document their eligibility for in-service and post-service benefits.
AmeriCorps Provisions, B.8.a., Terms of Service, Program Requirements, states that to be
eligible for an education award the member must complete the term of service and hours:

       •      Full-time members must serve at least 1,700 hours;
       •      Half-time members must serve at least 900 hours;
       •      Reduced half-time members must serve at least 675 hours;
       •      Quarter-time members must serve at least 450 hours; and
       •      Minimum-time members must serve at least 300 hours.

Subgrantees did not have procedures in place to verify the accuracy of hours recorded in
WBRS and/or to ensure that all member time was properly reported and timesheets
maintained in member files.




                                              25
During testing, we also noted that some weaknesses in timekeeping procedures, as follows:

                       Missing        Not      Prepared Whiteout           Changes Not
    Subgrantee        Signatures     Dated     in Pencil Corrections        Initialed
    AISD                               23
    AYH                                            2             34             25
    AYW                                            6              3             21
    CIS                                                           1             10
    ACEE                   1                                      3              3
    HRC                    _           __          _             __             12
    Total                  1           23          8             41             71

Subgrantee procedures required signatures, but did not always require signature dates, use of
ink, or timesheet changes to be initialed by the member and supervisor or prohibit pencil and
whiteout corrections.

AmeriCorps requirements do not specifically address timesheet procedures. It is, however,
good business practice to initial changes, make corrections without pencil or whiteout, sign
and date documents, and check the accuracy of hours recorded on timesheets. Without
procedures to verify member activities or timesheet accuracy, the potential exists that
members may perform prohibited activities or may receive education awards to which they
are not entitled. By initialing changes, accountability is maintained that timesheets are
consistent with member and management intentions.

Recommendation: We recommend that the Corporation require OneStar to strengthen its
subgrantee training and program monitoring procedures to ensure that subgrantees verify the
accuracy and reasonableness of service hours reported in WBRS and on timesheets, maintain
member timesheets in member files, and have policies to ensure that timesheets are properly
completed. We also recommend that the Corporation review the results of OneStar
monitoring visits until the Corporation is confident of the effectiveness of the strengthened
training and policies and procedures. We further recommend that the Corporation recover
education awards for members who did not meet the minimum service hour requirements.

OneStar’s Response: OneStar provides detailed instructions and guidance to its subgrantees
on the importance of accurately recording and compiling member time and attendance.
OneStar will strengthen its subgrantee training and program monitoring procedures to ensure
that subgrantees verify the accuracy and reasonableness of service hours.

Additional Comments: OneStar’s corrective actions, as described, are responsive to our
recommendations. The Corporation should review the results of OneStar’s site monitoring
visits to ensure corrective actions are implemented and should freeze or recover education
awards for those members without timesheets that support required service hours.




                                              26
5.     Subgrantees did not always complete member enrollment, exit, and change-of-
       status forms and enter them into WBRS in accordance with AmeriCorps
       requirements.

We tested enrollment, exit, and change-of-status forms for 178 members at 6 subgrantees.
Subgrantees did not enter member enrollment, exit, and change-of-status forms into WBRS
within the required 30-day timeframe, as follows:

                                         Forms Entered Late
               Subgrantee       Enrollment  Exit    Change-of-Status
               HRC                     1            2
               ACEE                    7            1
               AYW                     1            4              9
               AYH                    35           25              _
               Total                  44           32              9

In addition, we identified enrollment and exit forms that were missing or were not completed
and dated when signed. In some cases, the original signature date was predated or changed to
reflect the member’s start or exit date entered into WBRS.

                                                  Unsigned   Signature Date
                                                   and/or     Incorrect or
               Subgrantee         Missing         Undated       Changed
               ACEE                                  4
               CIS                    1              2             4
               AYH                                   2              6
               AISD                   2              1             29
               Total                  3              9             39

AmeriCorps Provisions, B.8.c., Terms of Service, Notice to the Corporation’s National
Service Trust, requires that the grantee notify the Corporation within 30 days of a member’s
enrollment, suspension, and/or completion of service. AmeriCorps Provisions, B.16.b.ii.,
Member Related Forms, Change of Status Forms, requires member change-of-status forms to
be submitted no later than 30 days after member status is changed. AmeriCorps Provisions,
C.27, Retention of Records, requires grantees to retain all program records for 3 years from
the date of submission of the final FSR. Without timely completion and submission of
enrollment, change-of-status, and exit forms, the Corporation cannot maintain accurate
member records.

Additionally, six AYH and two AISD member enrollment forms were completed and signed
in pencil, and whiteout was used to change the dates of signature on four AYH member exit
forms. AmeriCorps requirements do not specifically address procedures for preparing forms.
It is, however, good business practice to prepare, sign, and date documents in ink. When



                                             27
member forms are prepared with pencil and undated, it is difficult to determine if
unauthorized alterations have been made, and an audit trail does not exist to determine if the
changes were authorized.

Signature dates must be accurate because it is one of the factors in determining when an
applicant becomes a member, which determines the timing of Corporation actions.
Unauthorized alterations could affect member eligibility for education awards. In addition, it
could affect information provided to Congress with regard to the fiscal integrity of the
National Service Trust, the funding source for education awards.

Recommendation: We recommend that the Corporation require OneStar to strengthen its
subgrantee training and program monitoring procedures to ensure that member enrollment,
exit, and change-of-status forms are completed in ink, signed and dated, maintained in
member files, submitted to the Corporation as required, and maintained in member files.
Such training and strengthened procedures should be sufficient to ensure actions with regard
to such forms be taken within 30 days and that dates of signature will not be altered.

OneStar’s Response: OneStar provides its subgrantees detailed and specific guidance on the
importance of accurately recording member enrollment, exit, and change-of-status. OneStar
will work with the Corporation to strengthen the ability of its subgrantees to comply with
these policies and procedures.

Additional Comments: OneStar’s comments do not indicate whether it will provide
additional training and program monitoring of subgrantees to ensure that enrollment, exit and
change-of-status forms are properly completed and maintained. The Corporation should
require OneStar to strengthen these areas and then monitor to ensure the corrections were
implemented and effective.

6.     Some member contracts were not signed before applicants started service, were
       missing, or did not include all required elements.

We tested member contracts for 178 members at 6 subgrantees. Member contracts must be
signed by the member, and if the member is under 18 years of age, by the member’s parent or
guardian before starting service. Applicants become members only after signing the
contract; therefore service hours recorded before signing are not eligible as hours of service
that would count towards earning an education award.

In a number of instances, the member contract was not signed before the member started
service, or the signature date on the contract was later changed to the member’s start date. In
several instances, service hours recorded subsequent to the contract signing date were
insufficient to warrant an education award, as follows:




                                              28
                                      Signed        Signature     Questioned
                                   After Service       Date       Education
               Subgrantee              Start        Changed        Amounts
               AYW                        10                          $4,725
               CIS                         5                           3,750
               ACEE                        2
               HRC                         1
               AISD                       12                           3,600
               AYH                         4            11             2,363
               Total                      34            11          $14,438

In addition, we noted that:

       •       CIS and AISD were each unable to provide a contract for one member.

       •       AISD’s member contract did not include a position description, although this
               information was provided as a separate document. AISD did not provide a
               position description for one member, and 17 position descriptions were signed
               after the members’ start date.

       •       AISD’s member contract did not address Drug-Free Workplace Act
               requirements. These requirements were communicated to members with
               another document, an Acknowledgement of Drug-Free Policy. We noted,
               however, that 17 members did not sign this document, and 8 members signed
               it after their start dates.

AmeriCorps Provisions, B.8.d., Member Enrollment Procedures, stipulates that AmeriCorps
programs are required to sign a member contract with an individual or otherwise enter a
legally enforceable commitment as defined by state law before enrolling a member. Further,
AmeriCorps Provisions, B.6.g., Parental Consent, require that individuals under 18 years of
age must provide written consent from a parent or legal guardian before program enrollment.
Members are not considered enrolled in the program until the contract is signed, and service
hours recorded before signing the member contract are not counted toward member
education awards.

AmeriCorps Provisions, B.7.b., Training, Supervision and Support, Member Contracts,
requires members to sign contracts that stipulate responsibilities and rights, including
position descriptions and requirements, under the Drug-Free Workplace Act. Failure to sign
member contracts that include all necessary stipulations could result in members being
unaware of their rights and responsibilities.

Recommendation: We recommend that the Corporation require OneStar to strengthen its
subgrantee training and program monitoring procedures to ensure that a signed and dated
contract, which stipulates all member responsibilities and rights, is obtained before members



                                               29
begin service and retained for each member for each year of service. We further recommend
that the Corporation disallow, and if already used, recover education awards awarded to
members that did not serve the minimum required service hours.

OneStar’s Response: OneStar has strengthened its member-eligibility training and policies.
OneStar will work with the Corporation to strengthen subgrantee policies and procedures to
ensure that member contracts are signed before an applicant becomes a member and to more
accurately account for member hours worked.

Additional Comments: OneStar’s corrective actions, as described, are responsive to our
recommendations. The Corporation should follow up to ensure actions taken were
implemented and effective and freeze or recover education awards for members with
insufficient service hours.

7.     Some subgrantees did not always document member orientation attendance.

We tested orientation attendance for 178 members at 6 subgrantees. Five subgrantees could
not provide documentation to show that all members received orientation covering the
AmeriCorps program and requirements before starting service, as follows:

       •      CIS did not provide sign-in sheets or other evidence that six members
              attended orientation. One was a PY 2004-2005 member who entered the
              program after the preservice orientation. The other five were PY 2005-2006
              Education Award Only (EAO) members who would normally attend an
              AmeriCorps EAO orientation and enrollment session at a different time than
              other members.

       •      AYW had no documentation to show that 11 members in PY 2005-2006
              attended orientation. The subgrantee considered the member timesheets as
              sufficient documentation of attendance, but these timesheets did not indicate
              member activities.

       •      HRC did not provide documentation that four PY 2005-2006 members
              received orientation. These members started the program late, and their
              timesheets did not indicate that they attended the orientation required by HRC
              before starting service.

       •      ACEE did not provide support to show that two members, one member in PY
              2003-2004 and one in PY 2005-2006, attended orientation. In both instances,
              ACEE did not provide sign-in sheets for these members, and their timesheets
              did not identify orientation hours.

       •      AYH did not provide documentation to show that one PY 2004-2005 member
              received an orientation.




                                            30
AmeriCorps Provisions, B.7.c., Training, Supervision, and Support, states that grantees are
required to provide members with the training, skills, knowledge, and supervision necessary
to perform tasks required in their assigned project positions, including specific training in a
particular field and background information on the community served. Additionally,
AmeriCorps Provisions, C.27, requires grantees to retain all program records for 3 years from
the date of submission of the final FSR.

Recommendation: We recommend that the Corporation require OneStar to strengthen its
subgrantee training and program monitoring procedures to ensure that subgrantees retain
documentation to support member attendance at orientation.

OneStar’s Response: OneStar has strengthened its subgrantee training and will continue to
monitor program procedures to ensure that subgrantees retain documentation supporting
member orientation attendance.

Additional Comments: OneStar’s corrective actions, as described, are responsive to our
recommendation. The Corporation should follow up to be sure that OneStar’s improvements
are working as intended.

8.     Subgrantees did not, in some instances, conduct member evaluations that met
       AmeriCorps requirements and did not document all evaluations.

We tested member evaluations for 178 members at 6 subgrantees. The subgrantees did not
provide documentation that some members received mid-term and final evaluations, and
many of the evaluations tested were missing either member or supervisor signatures. The
missing and unsigned evaluations that we identified follow:

                                    Mid-Term
                                   Evaluations             Final Evaluations
             Subgrantee         Missing  Unsigned         Missing    Unsigned
             HRC                                             12             1
             ACEE                   1                         3             1
             CIS                                              3             2
             AYH                                             12             8
             AISD                   2            4            3            17
             AYW                    7           11           17             7
             Total                 10           15           50            36

All final evaluations tested at ACEE, HRC, CIS, AYH, and AISD, and two of the final
evaluations tested at AYW did not indicate if the member had completed the required
number of service hours to be eligible for an education award. In addition, many of the
HRC, ACEE, AISD, and AYW final evaluations tested were conducted and signed before the
member’s end date, in some cases more than 30 days before the end date.




                                              31
AmeriCorps Provisions, B.7.g., Performance Reviews, states that grantees must conduct and
keep a record of at least a midterm and end-of-term written evaluation of each member’s
performance for full and half-time members, and an end-of-term written evaluation for less
than half-time members. The evaluation should document that the member has:

       •      Completed the required number of hours;
       •      Satisfactorily completed assignments; and
       •      Met other performance criteria communicated at the beginning of the service
              term.

Evaluations are necessary to ensure that members are eligible for additional service terms,
and that grant objectives have been met. One AYH member without a PY 2004-2005 final
evaluation returned for a second term in PY 2005-2006. Without an evaluation, members are
not eligible to serve an additional term of service. We questioned the member’s PY 2005-
2006 living allowance of $2,673, as explained in Schedule F, Note 4.

Recommendation: We recommend that the Corporation require OneStar to strengthen its
subgrantee training and program monitoring procedures to ensure that subgrantees conduct
and document member evaluations that meet AmeriCorps program requirements. We further
recommend that the Corporation follow up with OneStar to determine the amount of the
AYH member’s living allowance, related benefits, and related administrative costs to be
disallowed and recovered.

OneStar’s Response: OneStar has strengthened its subgrantee training and will continue to
monitor program procedures to ensure that subgrantees conduct and document member
evaluations meeting AmeriCorps program requirements.

Additional Comments: OneStar’s corrective actions, as described, are responsive to our
recommendations. The Corporation should follow up to determine whether OneStar’s
actions were adequate and determine the amount to be disallowed and recovered for the
returning AYH member who did not have a prior final evaluation.

9.     Some Subgrantee financial management systems did not adequately account for
       and report grant costs and related program income in accordance with Federal
       requirements.

We noted several instances in which subgrantees were not accounting for and reporting grant
costs and related program income in accordance with Federal requirements, as follows:

       •      HRC and AYH did not identify and segregate Federal and match costs in their
              accounting systems. As required by 45 CFR § 2543.21(b), recipient financial
              management systems shall provide for accurate, current, and complete
              disclosure of financial results of each Federally sponsored program.
              Commingling of Federal and match costs might result in subgrantees not
              meeting their match requirements. Further, 45 CFR § 2521.45 establishes
              grant requirements for matching program costs. Paragraph (b), Program


                                            32
      Operating Costs, states that the Corporation share of program operating costs
      may not exceed 67 percent. HRC claimed 85.43 percent of program operating
      costs for PY 2005-2006 as Corporation share. We did not question HRC costs
      for the unmet match because the program year had not yet ended.

•     HRC did not have documentation to support allocation percentages for
      donated and leased space claimed in-kind contributions and match costs.
      However, 45 CFR § 2543.23 states that contributions may be accepted to the
      extent the costs are verifiable from the recipient’s records. It further states
      that the basis for determining the valuation of contributions must be
      documented.

•     HRC and AYW did not report program income on their FSRs. However,
      45 CFR § 2543.24, Program income, requires that program income be
      deducted from outlays. FSR instructions require that program income be
      reported on the form. Staff members responsible for financial reporting at
      HRC and AYW were unaware of this reporting requirement. If subgrantees
      do not report program income on FSRs, State commissions and the
      Corporation are not made aware of additional funding used to support
      program costs and cannot be assured of correct accounting for these amounts.

•     HRC, AYH, and AYW did not submit FSRs and progress reports in
      accordance with the subgrant requirements. AmeriCorps Provisions, B.16.,
      Reporting Requirements, states that grantees are responsible for setting
      subgrantee reporting requirements, and that subgrantees must adhere to
      reporting requirements outlined and communicated by the grantee for the
      program year. OneStar’s subgrant provisions included due dates for each
      quarterly FSR and progress report to be submitted on WBRS. AYW did not
      submit four quarterly FSRs in PY 2003-2005, and HRC did not submit one
      PY 2004-2005 progress report. In addition, we identified reports submitted
      after the subgrant due dates as follows:

                         Financial Status
                             Reports                Progress Reports
    Subgrantee         Number     Days Late        Number Days Late
    HRC                   2          4-6               2         3-5
    AYH                   2          3-97              1         38
    AISD                                               3       199-554
    ACEE                                               1         38
    AYW                   3          7-642

      Not submitting subgrantee FSRs and progress reports on time can adversely
      impact OneStar’s ability to submit complete and accurate reports to the
      Corporation.




                                     33
Recommendation: We recommend that the Corporation require OneStar to provide training
to ensure that subgrantees are aware of the necessity of:

       •       Identifying and segregating Federal and match costs on their accounting
               records;

       •       Properly documenting amounts claimed as in-kind contributions and match
               costs;

       •       Reporting program income as required; and

       •       Reporting grant progress in a timely manner.

In addition, we recommend that the Corporation follow up with OneStar to determine
whether the training was effective.

OneStar’s Response: OneStar has been diligently working with certain subgrantees to
document and verify their reported program income and costs. OneStar will review and
strengthen its training processes to ensure subgrantees are aware of and follow all grant
requirements.

Additional Comments: OneStar’s corrective actions, as described, are responsive to our
recommendations.




                                              34
                              APPENDIX A

ONESTAR NATIONAL SERVICE COMMISSION’S RESPONSE TO AGREED-UPON PROCEDURES
                                REPORT
                      APPENDIX B

CORPORATION’S RESPONSE TO AGREED-UPON PROCEDURES REPORT
           gkAL&
COMMUNITY


              Gerald Walpin, Inspector General

From:         Margaret Rosenbeny, Director of Grants Management         @-b@
                                                                       14
Cc:           Jew Bridges, Chief Financial Officer
              Kristin McSwain, Director of AmeriCorps
              William Anderson, Deputy CFO for Finance
              Andrew Kleine, Deputy CFO for Planning and Program Management
              Sherry Blue, Audit Resolution Coordinator, Office of the CFO

Date:         June 15,2007

Subject:      Response to OIG Draft Audit Report: Agreed-upon Procedues for Corporation
              Grants awarded to the Onestar National Service Commission


Thank you for the opportunity to review the draft audit report of the Corporation's grants awarded to
the Texas commission, OneStar National Service Commission. We do not have specific comments
at this time. We will respond to all findings and recommendations in our management decision
when the final audit is issued; we have reviewed the findings in detail; and worked with the
Commission to resolve the audit.
